No. ____________
IN THE

ROBERT DEANE SCHWARTZ,

Petitioner,
v.
RAYMOND MADDEN, WARDEN,

Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit
CERTIFICATE OF SERVICE

I, Tracy Casadio, a Deputy Federal Public Defender in the Office of the
Federal Public Defender who was appointed as counsel for Petitioner under the
Criminal Justice Act, 18 U.S.C. ยง 3006(A)(b), hereby certify that on June 10, 2020, a
copy of MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and
PETITION FOR A WRIT OF CERTIORARI will be mailed postage prepaid to:
Kevin Vienna, Deputy Attorney General, 600 West Broadway, Suite 1800,
San Diego, CA 92101, Counsel for the Respondent.

I declare under penalty of perjury that the foregoing is true and correct.

Dated: July 10, 2020

s/ Tracy Casadio
Tracy Casadio*
Attorney for Petitioner

*Counsel of Record

2

